No. 21-228
IN THE

Supreme Court of the United States
_________

MICHAEL MURPHY,
v.

Petitioner,

RICHARD SARTA, ET AL.,
_________

Respondents.

On Petition for Writ of Certiorari
to the Tennessee Supreme Court
_________

BRIEF IN OPPOSITION TO PETITION
FOR A WRIT OF CERTIORARI
_________

Kenneth W. Ward, Esq. Bar# 315121
TRAMMELL, ADKINS & WARD, P.C.
P.O. Box 51450
Knoxville, Tennessee 37950
Telephone: (865) 330-2577
Facsimile: (865) 330-2578
Email: kenward@tawpc.com
Counsel for Respondents
LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

QUESTION PRESENTED
Whether the dismissal of the Petitioner’s
appeal by the Tennessee Court of Appeals for failing
to timely file a notice of appeal as required by the
Tennessee Rules of Appellate Procedure violated an
alleged federal constitutional right to a jury trial
when this matter was tried by a 12 person that
returned a verdict finding the Respondents not at
fault for the Petitioner’s alleged injuries.

i

TABLE OF CONTENTS
QUESTIONS PRESENTED ...............................

i

TABLE OF AUTHORITIES ...............................

iii

OPINIONS BELOW ............................................

1

JURISDICTION ...................................................

1

STATEMENT OF CASE .....................................

1

ARGUMENT.........................................................

6

CONCLUSION .....................................................

12

ii

TABLE OF AUTHORITIES
Cases

Jones v. Barnes, 463 U.S. 745 (1983). ...............

11

Colgrove v. Battin, 413 U.S. 149 (1973) ............

11

Statutes, Rules, and Constitutional Provisions
U.S. Supreme Ct R 10..........................................

6,7

U.S. Supreme Ct R 13..........................................

6

Tenn. R. Civ. P. 54.04(2) .....................................

3

Tenn. R. Civ. P. 59 ...............................................

2,5

Tenn. R. Civ. P. 59.1 ............................................

3,4

Tenn. R. Civ. P. 59.04 ..........................................

2

iii

OPINIONS BELOW
The is no reported opinion below, in that upon
the Petitioner filing his notice of appeal, the
Tennessee Court of Appeals issued an Order on
September 15, 2020 that the Petitioner show cause as
to why his appeal should not be dismissed, in part,
due to being untimely filed. The Tennessee Court of
Appeals then issued an Order on October 14, 2020
dismissing the Petitioner’s appeal, in part, upon
determining that it was in fact untimely filed. The
Order, setting forth the Tennessee Court of Appeals
rationale, is included as part of the Petitioner’s
Appendix. The Tennessee Supreme Court then
denied the Petitioner’s application for permission to
appeal on March 17, 2021.
JURISDICTION
The Petitioner asserts that this Court
possesses jurisdiction in this matter pursuant to 28
U.S.C. § 1257(a).
STATEMENT OF THE CASE
This lawsuit arises out of events alleged to
have occurred on June 22, 2012. Pet. App. B,
Complaint. The petitioner, Michael Murphy, claims
that on that date he suffered injuries to his hand from
an automatic door at the entrance to a store and art
gallery operated by the respondent, Rebecca Keck,
d/b/a Ingenuity 101, located at 101 East Main Street,
Morristown, Tennessee. Id. On June 6, 2019, the
parties appeared for a jury trial in this matter, where
1

after the close of proof, the 12-person jury found that
the Respondents were not at fault in this matter. Pet.
App. B, Jury Verdict Form. The trial court entered
judgment upon the jury’s verdict on June 20, 2019.
Pet. App. A, Order.
On July 18, 2019, the Petitioner filed in the
trial court a Motion for New Trial pursuant to Rule 59
of the Tennessee Rules of Civil Procedure, listing 10
different reasons why he contended he was entitled to
a new trial. Pet. App. B, Motion for New Trial. On
October 3, 2019, the Petitioner filed an Amended
Motion for New Trial adding an additional reason
why he contended he was entitled to a new trial in
this matter. Pet. App. B, Amended Motion for New
Trial.
After trial, the Respondents also filed their own
motion seeking discretionary costs as the prevailing
parties at trial. Pet. App. B, Order.
On October 11, 2019, the parties appeared for
hearing before trial court on all post-trial motions.
Pet. App. B, Order. At the hearing, the trial court
denied
the
Petitioner’s
Motion
for
New
Trial/Amended Motion for New Trial, and granted, in
part, the Respondents’ Motion for Discretionary
Costs. Id. The trial court entered an Order regarding
the Post-Trial Motions on November 8, 2019. Id.
On December 5, 2019, the Petitioner filed a
Motion with the trial court, asking the court,
pursuant to Rule 59.04 of the Tennessee Rules of Civil
2

Procedure, to alter or amend the November 8, 2019
Order “to specify and identify which particular court
reporter expenses are being awarded to Defendant of
$2,500.00 and to correct the amount in the third
paragraph of the Order on page 2 which states
$3,587.81, as well as to indicate whether the award is
pursuant to TRCP 54.04(2).” Pet. App. A, Motion. On
February 7, 2020, the trial court conducted a hearing
on the motion and altered the amount of discretionary
costs awarded. Pet. App. B, Order on Plaintiff Motion
Related to Discretionary Costs.
On March 16, 2020, the Petitioner filed a
Notice of Appeal in the Tennessee Court of Appeals.
Pet. App. A, Order. On September 15, 2020, the
Tennessee Court of Appeals issued an Order asking
the Petitioner to show cause why his appeal should
not be dismissed as having been untimely filed. Id.
The Tennessee Court of Appeals specifically found
that “a review of the record on appeal reveals that the
appellant did not timely appeal the November 8, 2019
order, thus depriving this Court of jurisdiction to
consider any issues with regard to his motion for new
trial,” as the November 8, 2019 order denied the
Petitioner’s motion for new trial and thereby
constituted a final judgment for purposes of filing an
appeal. Id. The Tennessee Court of Appeals noted
that it was “unable to determine from the notice of
appeal whether the appellant [was] attempting to
appeal issues with regard to his motion for new trial
or whether he [was] attempting to appeal the award
of discretionary costs contained in the February 13,
2020 order.” Id. The Tennessee Court of Appeals
3

provided the Petitioner until September 30, 2020 to
“show cause why this appeal should not be dismissed
as having been untimely filed.” Id.
On October 14, 2020, the Tennessee Court of
Appeals found that the November 8, 2019 order
denied the Petitioner’s motion for new trial, and
therefore the appellant failed to timely appeal the
issues raised in the motion for new trial. Pet. App. A,
Order. The Tennessee Court of Appeals reasoned that
“the thirty-day time limit for filing a notice of appeal
may be extended by the timely filing of one of four
allowed motions pursuant to Tenn. R. Civ. P. 59.01.”
Id. It further reasoned that “Rule 59.01 clearly and
unambiguously provides that these four motions ‘are
the only motions contemplated by the rules’ which
will extend the time for filing an appeal,” and that
“[f]urthermore, Rule 59.01 provides: “[m]otions to
reconsider any of these motions are not authorized
and will not operate to extend the time for appellate
proceedings.” Id. As a “motion for discretionary costs
is not among the motions that toll the time for taking
an appeal,” it “logically follows that a motion seeking
to amend an order for discretionary costs likewise
would not toll the time for filing a notice of appeal.”
Id.
The Tennessee Court of Appeals further found
that the February 13, 2020 order amended the
November 8, 2019 order only as to the amount of the
discretionary costs, and the judgment was not altered
in respect to the appellant’s motion for a new trial. Id.
Therefore, “if [the Tennessee Court of Appeals] were
4

to consider appellant’s [December 5, 2019] motion
regarding the November 8, 2019 order as one filed
pursuant to Rule 59, the motion would be an
impermissible motion to reconsider.” Id. Finding that
“the thirty-day time period for filing a notice of appeal
of the judgment began to run when the Trial Court
entered its November 8, 2019 order denying plaintiff’s
motion for a new trial[, …] the Court of Appeals
concluded the notice of appeal was untimely filed as
to any issues regarding the motion for new trial or the
underlying judgment[,]” and therefore it did not have
jurisdiction to consider those issues. Id. The
Tennessee Court of Appeals therefore found that the
Petitioner’s appeal was timely only as to the February
13, 2020 order regarding discretionary costs, and
therefore the appeal could proceed in his appeal as to
the issues regarding discretionary costs only. Id. It
then dismissed the appeal, in part, as to the raised in
the Petitioner’s motion for a new trial.
On December 14, 2020, the Petitioner filed an
Application for Permission to Appeal with the
Tennessee Supreme Court seeking their review as to
whether the Tennessee Court of Appeals properly
dismissed his appeal, in part, for being untimely filed
pursuant to the Tennessee Rules of Appellate
Procedure. Pet. App. C. The Tennessee Supreme
Court entered an Order on March 17, 2021 denying
the Petitioner’s Application for Permission to Appeal
and thereby refusing to consider this matter. Pet.
App. C., Order.

5

ARGUMENT
This Court should deny the Petition for Writ of
Certiorari filed in this matter for two reasons. First,
the Petitioner failed to timely file his Petition within
the time limits set forth in Rule 13 of the Rules of the
Supreme Court of the United States in that he filed
his Petition more than 90 days after the Tennessee
Supreme Court, the highest state court, refused to
exercise its discretion and accept his application for
permission to appeal. Second, the Petition fails to set
forth any rationale pursuant to Rule 10 of the Rules
of the Supreme Court of the United States as to why
this Court should exercise its discretionary authority
in this matter. However, a complete consideration of
the filings by the Petitioner shows that the requested
relief does not meet any of the character of reasons
found within Rule 10 of the Rules of the Supreme
Court of the United States.
1.

The Petitioner failed to timely file his
Petition for Wirt of Certiorari.

Making the same error he made in attempting
to appeal the judgment entered by the trial court in
this matter, the Petitioner has failed to timely file his
Petition for Wirt of Certiorari with this Court.
Pursuant to Rule 13 of the Rules of the Supreme
Court of the United States:
Unless otherwise provided by law, a
petition for a writ of certiorari to review
a judgment in any case, civil or criminal,
6

entered by a state court of last resort […]
is timely when it is filed with the Clerk
of this Court within 90 days after entry
of the judgment. A petition for a writ of
certiorari seeking review of a judgment
of a lower state court that is subject to
discretionary review by the state court of
last resort is timely when it is filed with
the Clerk within 90 days after entry of
the order denying discretionary review.
As admitted in the Petition, the Petitioner is
appealing from a March 17, 2021 Order entered by
the Tennessee Supreme Court wherein it denied the
Petitioner’s application for permission to appeal.
Upon the entry of this Order by the Tennessee
Supreme Court denying his application for
discretionary review, the Petitioner had 90 days to file
his Petition for Writ of Certiorari with this Court.
Yet, the Petitioner did not file his Petition until
almost five months later on August 13, 2021. For this
reason alone, this Court should deny the Petition for
Writ of Certiorari and refuse to consider this matter.
2.

The Petition for Wirt of Certiorari fails
to provide any compelling reasons for
why this Court should exercise its
discretion and consider this matter.

Rule 10 the Rules of the Supreme Court of the
United States sets forth a list of character of reasons
that this Court will consider in determining whether
7

it should exercise its discretionary authority to grant
a Petition for Writ of Certiorari and consider a matter:
Review on a writ of certiorari is not a
matter of right, but of judicial discretion.
A petition for a writ of certiorari will be
granted only for compelling reasons. The
following, although neither controlling
nor fully measuring the Court’s
discretion, indicate the character of the
reasons the Court considers:
(a) a United States court of
appeals has entered a decision in
conflict with the decision of
another United States court of
appeals on the same important
matter; has decided an important
federal question in a way that
conflicts with a decision by a state
court of last resort; or has so far
departed from the accepted and
usual
course
of
judicial
proceedings, or sanctioned such a
departure by a lower court, as to
call for an exercise of this Court’s
supervisory power;
(b) a state court of last resort has
decided an important federal
question in a way that conflicts
with the decision of another state
court of last resort or of a United
States court of appeals;
8

(c) a state court or a United States
court of appeals has decided an
important question of federal law
that has not been, but should be,
settled by this Court, or has
decided an important federal
question in a way that conflicts
with relevant decisions of this
Court.
A petition for a writ of certiorari is rarely
granted when the asserted error consists
of erroneous factual findings or the
misapplication of a properly stated rule
of law.
Of the above, reason (a) is clearly not applicable to
this matter as this Petition is being filed concerning
the decision of a state court rather than a decision
from the United States Court of Appeals.
That leaves reasons (b) and (c) both of which
concern state courts deciding important federal
questions that either conflict with the decisions of
other state courts of last resort, conflict with relevant
decisions of this Court, or decides important questions
of federal law that have not been settled by this Court.
The Petition, however, fails to address what federal
question the Tennessee Court of Appeals raised in
making its determination to dismiss, in part, the
Petitioner’s appeal and why that decision needs to be
addressed by this Court.
9

The Petition focuses primarily on Tennessee
law, particularly the application of certain Tennessee
Rules of Civil Procedure and Tennessee Rules of
Appellate Procedure by Tennessee appellate courts.
In fact, the Tennessee Court of Appeals dismissed the
Petitioner’s appeal, in part, based upon his failure to
timely file a notice of appeal as to the issues raised in
his motion for new trial in accordance with the
Tennessee Rules of Appellate Procedure. Nowhere in
the October 14, 2020 Order of the Tennessee Court of
Appeals did it interpret, rely upon, or decide any
important questions of federal law.
The Petition does allege that these rules of
procedure are used to “block the right to a jury trial,”
yet the Petitioner received a 12-person jury trial in
this civil, personal injury matter. As the Petitioner
received a jury trial, the Respondents are unsure as
to how his perceived constitutional rights were
violated given that his Petition nowhere explains the
precedent behind his alleged federal constitutional
right to a jury trial in a state civil proceeding, what it
encompasses, or how it was violated.
Further, assuming, arguendo, that the
Petitioner is solely complaining that he has been
disenfranchised of some federal constitutional right to
an appeal in a civil matter pending in a state court,
the Respondents have been unable to locate any
decision by this Court that such a right exists under
the federal constitution. This Court has already held
that there is necessarily no constitutional right to an
appeal in criminal proceedings pending in state
10

courts. Jones v. Barnes, 463 U.S. 745, 751 (1983).
Given that the “Seventh Amendment is one of the few
remaining provisions in the Bill of Rights which has
not been held to be applicable to the States,” Colgrove
v. Battin, 413 U.S. 149, 169 n.4, (1973), the
Respondents have been unable to locate any
precedent from this Court that the federal
constitution contains a right to an appeal in a civil
matter pending in a state court.
Regardless, this Court under the authority
granted by Congress has enacted its own Federal
Rules of Civil Procedure and Federal Rules of
Appellate Procedure to govern the practice,
procedure, and flow of civil matters. The Tennessee
Rules of Civil Procedure. The Tennessee Rules of
Appellate Procedure, that like their federal
counterparts contain time limitations as to certain
filings, largely mirror the federal rules enacted by this
Court and would have allowed for the Petitioner to file
an appeal from the jury trial raising the issues
contained within his motion for a new trial had he
followed their time requirements. Yet, the Petitioner,
who though proceeding pro se in this matter is a
licensed Tennessee attorney, failed to adhere to these
rules and timely file his notice of appeal. There is
therefore no important federal question of law to be
settled or decided by this Court due to the Petitioners
failure to follow rules of procedure enacted by the
Tennessee Supreme Court.

11

CONCLUSION
For the aforementioned reasons, the Petition
for Wirt of Certiorari should be denied.
Respectfully submitted,
Kenneth W. Ward, Esq. Bar# 315121
TRAMMELL, ADKINS & WARD, P.C.
P.O. Box 51450
Knoxville, Tennessee 37950
Telephone: (865) 330-2577
Facsimile: (865) 330-2578
Email: kenward@tawpc.com
Counsel for Respondents
October 15, 2021

12

